SEPTEMBER 16, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 REVIEW OF NASA’S MANAGEMENT AND OVERSIGHT
        OF ITS INFORMATION TECHNOLOGY
               SECURITY PROGRAM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-024 (ASSIGNMENT NO. A-09-004-03)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FISMA        Federal Information Security Management Act
IT           Information Technology
IV&V         Independent Verification and Validation
NASA         National Aeronautics and Space Administration
NIST         National Institute of Standards and Technology
OCIO         Office of the Chief Information Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
POA&M        Plan of Action and Milestones
RMS          Risk Management System
SP           Special Publication


                                                              REPORT NO. IG-10-024
SEPTEMBER 16, 2010




                                                                                               OVERVIEW


 REVIEW OF NASA’S MANAGEMENT AND OVERSIGHT
        OF ITS INFORMATION TECHNOLOGY
               SECURITY PROGRAM

                                                                                                 The Issue

  As part of our annual audit of NASA’s compliance with the Federal Information Security
  Management Act (FISMA) for fiscal year (FY) 2009, the Office of Inspector General
  (OIG) reviewed a representative sample of 29 moderate- and high-impact 1 Agency and
  external (contractor) information technology (IT) systems from the NASA Centers,
  Headquarters, and the NASA Shared Services Center. Following the issuance of our
  FISMA summary report, 2 we issued a series of reports containing detailed findings and
  recommendations related to specific deficiencies identified in our audit. 3 This report, the
  third in the series, focuses on whether NASA’s IT security program met annual IT
  security controls and contingency plan testing requirements, ensured that external IT
  systems were certified and accredited, and implemented an effective Agency-wide
  process for managing IT corrective actions to mitigate known IT security weaknesses.
  Details of the audit’s scope and methodology are in Appendix A.

                                                                                                     Results

  We found that NASA’s IT security program had not fully implemented key FISMA
  requirements needed to adequately secure Agency information systems and data. For
  example, we found that only 24 percent (7 of 29) of the systems we reviewed met FISMA
  requirements for annual security controls testing and only 52 percent (15 of 29) met
  FISMA requirements for annual contingency plan testing. In addition, only 40 percent
  1
      NPR 2810.1A, “Security of Information Technology,” Chapter7, defines moderate impact as “loss of
      confidentiality, integrity, or availability could be expected to have a serious adverse effect on NASA
      operations, organizational assets, or individuals.” High impact is defined as “loss of confidentiality,
      integrity, or availability could be expected to have a severe or catastrophic adverse effect on NASA
      operations, organizational assets, or individuals.”
  2
      NASA OIG. “Federal Information Security Management Act: Fiscal Year 2009 Report from the Office of
      Inspector General” (IG-10-001, November 10, 2009).
  3
      NASA OIG. “Review of the Information Technology Security of the Internet Protocol Operational
      Network (IONet)” (IG-10-013, May 13, 2010); and NASA OIG. “Audit of NASA’s Efforts to
      Continuously Monitor Critical Information Technology Security Controls” (IG-10-019, September 14,
      2010).


REPORT NO. IG-10-024
                                                                                         OVERVIEW



     (2 of 5) of the external systems we reviewed were certified and accredited. These
     deficiencies occurred because NASA did not have an independent verification and
     validation function for its IT security program.

     We also found that NASA’s Office of Chief Information Officer (OCIO) had not
     effectively managed corrective action plans used to prioritize the mitigation of IT security
     weaknesses. This occurred because OCIO did not have a formal policy for managing the
     plans and did not follow recognized best practices when it purchased an information
     system that it hoped would facilitate Agency-wide management of IT corrective action
     plans. However, after spending more than $3 million on the system since October 2005,
     implementation of the software failed. The Agency is currently expending funds to
     acquire a replacement system.

     Specifically, we found that the information system was significantly underutilized and
     therefore was not an effective tool for managing corrective action plans across NASA.
     For example, the system contained corrective actions plans for only 2 percent (7 of 289)
     of the 29 systems we sampled. In our judgment, the system was underutilized because
     OCIO did not fully document detailed system requirements prior to selecting the system
     and did not have users validate requirements via acceptance testing prior to implementing
     it. Because the information system contained minimal data and the manual process the
     Agency relied on was not consistently followed, OCIO’s management of corrective
     actions plans was ineffective and did not ensure that significant IT security weaknesses
     were corrected in a timely manner.

     Until NASA takes steps to fully meet FISMA requirements and to improve its system
     acquisition practices, NASA’s IT security program will not be fully effective in
     protecting critical Agency information systems. Moreover, until such improvements are
     made OCIO will not be in a position to effectively allocate resources to correct IT
     security weaknesses.

     Management Action

     To strengthen NASA’s IT security program and to ensure that OCIO can effectively
     manage and correct IT security weaknesses, we recommended that the NASA Chief
     Information Officer:

        1. establish an independent verification and validation function to ensure that all
           FISMA and Agency IT security requirements are met;

        2. develop a written policy for managing IT security corrective action plans; and

        3. adopt industry system acquisition best practices, including documenting detailed
           requirements prior to system selection and conducting user acceptance testing
           before system implementation.



ii                                                                          REPORT NO. IG-10-024
OVERVIEW



  In response to our August 17, 2010, draft of this report, the Chief Information Officer
  concurred with our recommendations and stated that NASA will:

      1. update policy to require independent assessments of IT system security controls to
         strengthen the verification and validation function by September 30, 2011;

      2. develop a policy for managing IT security corrective action plans by May 16,
         2011; and

      3. develop a policy requiring detailed system requirements be documented prior to
         system selection by May 16, 2011, and better enforce existing policy requiring
         user acceptance testing prior to system implementation.

  Management’s comments are provided in Appendix B.

  In general, we consider the Chief Information Officer’s proposed actions to be responsive
  to our recommendations. However, we were concerned that her response to
  Recommendation 1 appears to shift responsibility for verification and validation of the
  Agency’s IT security practices from her office to third parties such as NASA OIG and the
  Government Accountability Office. While these entities perform an important oversight
  role, the primary responsibility for establishing effective verification and validation
  practices for the Agency’s IT security program must reside with OCIO. Nevertheless,
  we will consider the recommendations resolved and will close each upon verification that
  management has completed the corrective actions.




REPORT NO. IG-10-024                                                                          iii
SEPTEMBER 16, 2010




                                                        CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

  RESULTS
      NASA Did Not Fully Satisfy FISMA Requirements_____________ 4
      Agency-wide Management of IT Corrective Actions Plans
        Needs Improvement ________________________________ 8

  APPENDIX A
      Scope and Methodology _______________________________ 11
      Review of Internal Controls ____________________________ 12
      Prior Coverage ______________________________________ 13

  APPENDIX B
      Management Comments ______________________________ 14

  APPENDIX C
      Report Distribution ___________________________________ 16




REPORT NO. IG-10-024
SEPTEMBER 16, 2010




                                                                    INTRODUCTION


Background

  The Federal Information Security Management Act (FISMA) sets forth specific
  information security requirements Federal agencies must adhere to, including
  requirements relating to system security controls assessments, system contingency plans
  tests, and system certification and accreditation.

  FISMA also assigns specific IT responsibilities to senior agency officials and agency
  inspectors general. For example, NASA’s Chief Information Officer is responsible for
  developing and overseeing Agency-wide, risk-based, cost-effective policies and
  procedures for addressing information security. NASA’s Deputy Chief Information
  Officer for Information Technology (IT) Security is responsible for implementing an
  Agency-wide security program that is consistent with FISMA and Agency policies and
  procedures. NASA’s Office of Inspector General (OIG) is responsible for performing an
  annual independent evaluation of the information security practices of the Agency in
  accordance with reporting instructions issued by the Office of Management and Budget
  (OMB).

  Our independent evaluation for fiscal year (FY) 2009 focused on the following 10 review
  areas required by OMB:
      •   System Inventory
      •   Certification and Accreditation, Security Controls Testing, and Contingency Plan
          Testing
      •   Agency Oversight of Contractor Systems and Quality of Agency System
          Inventory
      •   Agency Plan of Action and Milestones (POA&M) Process
      •   The Certification and Accreditation Process
      •   Agency Privacy Program and Privacy Impact Assessment (PIA) Process
      •   Configuration Management
      •   Incident Reporting
      •   Security Awareness Training
      •   Peer-to-Peer File Sharing




REPORT NO. IG-10-024                                                                         1
                                                                                                    INTRODUCTION



    In our FY 2009 FISMA report, 4 we identified deficiencies in NASA’s IT security
    program related to security controls testing, contingency plan testing, and certification
    and accreditation of contractor-owned (external) systems. We also found deficiencies in
    the Agency’s process for managing corrective actions intended to remedy known IT
    security deficiencies.

    Security controls are the management, operational, and technical safeguards that help
    ensure the confidentiality, integrity, and availability of an IT system and its data. If
    NASA’s security controls do not function as intended, the Agency could experience a
    system breach resulting in the loss of sensitive information or an adverse effect on
    Agency operations. For example, in January 2009 a system breach caused by an
    improperly implemented security control resulted in the theft of a large quantity (22
    gigabytes) of sensitive data related to Space Exploration programs. Security controls
    testing evaluates the effectiveness of an agency’s controls by determining whether they
    are implemented correctly, operating as intended, and producing the desired result of
    protecting the system and its data.

    Computer systems are vulnerable to a variety of disruptions such as power outages,
    hardware failures, or equipment destruction resulting from fire or other catastrophic
    events. System contingency plans define the resources needed and processes to be
    followed in order to effectively and efficiently recover a system following a disruption. 5
    If a system disruption occurs and the contingency plan is not effective, NASA could be
    unable to perform critical business operations. Contingency plan testing helps mitigate
    the risk to NASA operations by providing assurance that systems will be recoverable and
    normal operations can be restored following a disruption.

    System certification and accreditation (C&A) is a formal risk evaluation and acceptance
    process that FISMA requires be performed before a system is authorized to store and
    process agency data. 6 Because external (contractor) systems store and process NASA
    data, they are required to comply with the C&A process. NASA’s responsibility in the
    external system C&A process is to ensure that system owners (contractors) have certified

    4
        NASA OIG. “Federal Information Security Management Act: Fiscal Year 2009 Report from the Office of
        Inspector General” (IG-10-001, November 10, 2009).
    5
        Contingency Plan: Management policy and procedures designed to maintain or restore business
        operations, including computer operations, possibly at an alternate location, in the event of emergencies,
        system failures, or disaster. Contingency plans assist managers to ensure that data owners continue to
        process (with or without computers) mission-critical applications in the event that computer support is
        interrupted. (NPR 2810.1A, Glossary [page 119 of 149])
    6
        Certification: The comprehensive assessment of the technical and non-technical security features and
        other safeguards of an IT [information technology] system and establishes the extent to which a particular
        design and implementation meets documented security requirements. (NPR 2810.1A, Section 14.2).
        Accreditation: The formal declaration by a senior Agency official that an IT system is compliant with
        established security requirements and is approved to operate using a prescribed set of safeguards. This
        decision should be based on the residual risks identified during the risk mitigation process. By
        accrediting an information system, the authorizing official accepts responsibility for the security of the
        system and is fully accountable for any adverse impacts to the agency if a breach of security occurs.
        (NPR 2810.1A, Section 14.4)



2                                                                                          REPORT NO. IG-10-024
INTRODUCTION



  and accredited systems. External systems that have not been properly certified and
  accredited could expose NASA data and the related programs to an unacceptable level of
  risk.

  When IT security deficiencies are identified, Agency employees create corrective action
  plans documenting the planned remediation process. These plans assist NASA in
  identifying, assessing, prioritizing, and monitoring the progress of efforts to correct IT
  security weaknesses found in Agency systems and programs. The plans are also used to
  close security performance gaps, assist OIG staff in their evaluations of Agency security
  performance, and assist OMB with oversight responsibilities.


Objectives

  We evaluated whether the Agency’s IT security and privacy management programs met
  performance standards set forth in OMB’s FY 2009 FISMA and Privacy Act reporting
  instructions. 7 We found deficiencies in NASA’s IT security program in the following
  three areas:
        •   annual assessment of system security controls and testing of contingency plans;
        •   certification and accreditation of external IT systems; and
        •   management of corrective actions plans for IT security weaknesses.

  We also reviewed internal controls as appropriate. Details of the audit’s scope and
  methodology are in Appendix A.




  7
      OMB. “FY 2009 Reporting Instructions for the Federal Information Security Management Act and
      Agency Privacy Management” (M-09-29, August 20, 2009).



REPORT NO. IG-10-024                                                                                 3
                                                                                                         RESULTS




                                                        NASA DID NOT FULLY SATISFY
                                                              FISMA REQUIREMENTS

               NASA did not fully satisfy FISMA requirements related to security control
               assessments, contingency plan testing and certification, and accreditation of external
               systems. Specifically, we reviewed 29 moderate- and high-impact Agency and
               external systems from all NASA Centers, Headquarters, and the NASA Shared
               Services Center and found that only
                   •    24 percent (7 of 29) of NASA’s systems met annual security controls
                        assessment requirements,
                   •    52 percent (15 of 29) of NASA’s systems met annual contingency plan
                        testing requirements, and
                   •    40 percent (2 of 5) of external contractor systems were certified and
                        accredited.

               NASA did not identify these deficiencies because the OCIO had not implemented an
               independent verification and validation function to ensure the effectiveness of the
               Agency’s IT security program. As a result, NASA could not ensure that: (1) its
               security controls adequately safeguard Agency systems and data; (2) systems could
               be effectively recovered and normal operations restored following a disruption; and
               (3) risks had been adequately mitigated in external systems that store and process
               Agency data.


NASA’s IT Security Program Did Not Meet Key FISMA
 Performance Standards

    We reviewed 29 moderate- and high- impact systems (24 internal and 5 external) for
    compliance with OMB and National Institute of Standards and Technology (NIST)
    requirements for the following performance measures:
          •    a current C&A package;
          •    security controls that had been assessed within the past year; and
          •    a contingency plan that had been tested within the past year.

    Security Control Assessments Lacked Sufficient Supporting Evidence and Were Not
    Tailored to System Impact Level. NIST guidance provides detailed instructions for
    conducting effective security control assessments. 8 These instructions state that control

    8
        National Institute for Standards and Technology. “Guide for Assessing the Security Controls in Federal
        Information Systems” (Special Publication 800-53A, December 2007).



4                                                                                        REPORT NO. IG-10-024
RESULTS



  assessments involve: (1) examining documents and observing activities; (2) interviewing
  personnel; and (3) testing controls and recording the results. Examining documents and
  conducting interviews helps security control assessors understand the information system
  While testing controls measures the effectiveness of security controls. For example, if a
  control fails during testing the Agency has identified a security weakness (i.e., an
  ineffective control) and is on notice that changes to the design or implementation of the
  control is required. NIST guidance also requires that security control assessments be
  tailored to the system’s impact level. Specifically, moderate- and high-impact systems
  require more controls testing than low-impact systems.

  We found that only 24 percent (7 of 29) of the system security control assessments we
  reviewed contained information sufficient for us to conclude that security controls in
  these moderate- and high-impact systems had been assessed within the past year in
  accordance with FISMA. The security control assessments we reviewed typically
  consisted of lists of security controls and a statement indicating that the control had been
  “tested” or “implemented.” However, other required information, such as the method
  used to perform the control assessment and the results of the tests, was often not
  provided. Without such information, the system owner and authorizing official cannot
  make informed decisions about whether security risks have been sufficiently mitigated.
  Moderate- and high-impact systems operating with ineffective security controls are
  susceptible to compromise, which could have serious effects on Agency operations,
  assets, or personnel.

  We also found that seven of the security control assessments we reviewed had not been
  tailored to the system’s impact level. For example, the assessment report for one high-
  impact system showed that only 3 of the selected 55 security controls had been assessed
  through actual control testing as opposed to reviewing documents or conducting
  interviews. However, NIST guidelines require extensive controls testing for high-impact
  systems. In our judgment, NASA’s testing 3 of 55 controls did not comport with this
  guidance and was not adequate to determine whether risks to the system had been
  adequately mitigated.

  Contingency Plan Tests Did Not Include Required Test Elements. We found that
  only 52 percent (15 of 29) of the system contingency plan tests we reviewed contained
  documentation sufficient for us to conclude that contingency plans for these moderate-
  and high-impact systems had been tested within the past year in accordance with FISMA.
  As discussed above, contingency plan testing is essential for identifying deficiencies and
  evaluating whether systems can be recovered to allow for normal operations following a
  disruption.

  NIST guidance provides that annual contingency plan tests include: (1) system recovery
  on an alternate platform from backup media; (2) coordination among recovery teams;




REPORT NO. IG-10-024                                                                             5
                                                                                                      RESULTS



    (3) internal and external connectivity; (4) system performance using alternate equipment;
    (5) restoration of normal operations; and (6) notification procedures. 9

    For the systems that lacked sufficient documentation of contingency plan testing, we
    found that the documentation either did not show evidence that any of the six NIST-
    required elements were tested or, in the case of high-impact systems, did not demonstrate
    that systems could be recovered and normal operations restored. Operating moderate-
    and high-risk systems without effective contingency plans increases the risk that the
    systems will not be recoverable and that normal operations might not be restored
    following a disruption. Such an outcome could have a serious adverse effect on Agency
    assets, operations, and personnel.

    External Systems Were Not Certified and Accredited. Although all 24 Agency
    systems we reviewed were certified and accredited, we found that only 40 percent (2 of
    5) of the external (contractor) IT systems we reviewed met C&A requirements. The
    other three systems were operating without evidence that two key requirements of the
    C&A process – the annual security controls assessment and contingency plan test – had
    been met. Because the security categorization of each external system reviewed was
    either moderate or high, a system breach could have a serious adverse effect on the
    Agency operations these systems support.

    The C&A process is an important risk management practice and an integral part of an
    agency’s information security program. By certifying and accrediting an IT system,
    management accepts responsibility for the security of the system and is fully accountable
    for any adverse impacts to the Agency if a breach of security occurs. FISMA requires
    that external systems be certified and accredited before they are placed into operation and
    allowed to store and process a Federal agency’s data. In addition, NASA’s standard
    operating procedure related to IT Security10 states that external systems must follow a
    C&A process that meets all FISMA standards. Although ensuring C&A is done is the
    responsibility of the external system owner, NASA is responsible for ensuring that
    external system owners conduct the C&A in accordance with FISMA. However, we
    found little evidence to show that NASA had performed required contractor oversight or
    that contractor management had formally authorized the systems for operation. External
    systems operating without meeting C&A requirements could expose NASA data and
    related programs to an unacceptable level of risk, the results of which could be the loss of
    critical data or NASA being unable to perform mission-critical operations.

    OCIO Needs an Independent Verification and Validation Function for the Agency’s IT
    Security Program. The deficiencies we identified in the Agency’s IT security program
    resulted from a lack of effective oversight by the OCIO. Because the OCIO had not
    implemented an independent verification and validation (IV&V) function for the
    9
        NIST. “Contingency Planning Guide for Information Technology Systems” (Special Publication 800-34,
        June 2002).
    10
          NASA. Standard Operating Procedure “External System Identification and IT Security Requirements”
         (ITS-SOP-0033, July 19, 2007).



6                                                                                     REPORT NO. IG-10-024
RESULTS



  Agency’s IT security program, it was unaware of the deficiencies we identified and
  therefore could not ensure that NASA systems and data were adequately secured.

  IV&V is a structured, two-step quality control and quality assurance process widely used
  for improving products and processes in the information technology domain.
  Verification, the first step, determines whether a product or process meets regulations.
  Validation, the second step, establishes evidence to provide a high degree of assurance
  that a product or process meets its intended requirement. In our judgment, establishing
  an IV&V function could strengthen the Agency’s security program by improving internal
  processes, which could help ensure that Federal and Agency IT security requirements are
  met. We believe that without this oversight function NASA cannot ensure that: (1) IT
  security controls adequately safeguard Agency systems and data; (2) systems can be
  effectively recovered and normal operations restored following a disruption; and (3) risks
  have been adequately mitigated in external systems that store and process Agency data.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. To strengthen NASA’s IT security program, we recommended that
the NASA Chief Information Officer establish an independent verification and validation
function to ensure that all FISMA and Agency IT security performance elements are met
and information systems are adequately secured.

  Management’s Response. The CIO concurred with our recommendation and stated that
  the OCIO will update the Agency approach to IT system security risk management by
  refining the requirements and capabilities needed for performing independent assessment
  of IT security controls. NASA will revise its approach to IT system security risk
  management, including the performance of independent control assessments, by
  September 30, 2011.

  Evaluation of Management’s Response. We consider the CIO’s proposed actions to be
  responsive to our recommendation. However, her response appears to shift responsibility
  for verification and validation of the Agency’s IT security practices from the OCIO to
  third parties such as NASA OIG and the Government Accountability Office. While these
  entities perform an important oversight role, the primary responsibility for establishing
  effective verification and validation practices for the Agency’s IT security program must
  reside with the OCIO. Nevertheless, we consider the recommendation resolved and will
  closed it upon verification that the proposed actions have been completed.




REPORT NO. IG-10-024                                                                           7
                                                                                        RESULTS




                                              AGENCY-WIDE MANAGEMENT OF
                                               IT CORRECTIVE ACTION PLANS
                                                       NEEDS IMPROVEMENT

           Corrective action plans are used to prioritize the mitigation of IT security
           weaknesses. We found that OCIO had not effectively managed corrective action
           plans for NASA IT systems because it does not have a formal policy for managing
           the plans and failed to follow recognized best practices when it acquired an
           information system that was to enable Agency-wide management of these plans.
           Although OCIO has spent more than $3 million since 2005 to implement an Agency-
           wide information system for managing IT security-related information, OCIO
           continued to administer corrective action plans manually using an unwritten policy
           that was not consistently followed.

           In addition, we found that this information system contained only 2 percent of the
           corrective action plans related to our sample of 29 systems, indicating substantial
           underutilization of the system. In our judgment, this underutilization occurred
           because OCIO did not follow widely recognized best practices when it acquired the
           system. Specifically, OCIO did not fully document detailed system requirements to
           support system selection and did not have users validate requirements via acceptance
           testing. Because the information system contained minimal data and the manual
           process was not consistently followed OCIO’s management of corrective actions
           plans was ineffective and did not ensure that significant IT security weaknesses were
           corrected in a timely manner.

           Until NASA implements a formal, written policy for managing corrective action
           plans and follows recognized best practices for acquiring the related IT system,
           OCIO will not have key IT security information needed to effectively manage
           NASA’s IT security program.


Lack of a Formal Policy Prevented OCIO from Effectively
  Managing IT Security Corrective Action Plans

    Federal criteria and Agency policy require NASA to have processes in place to develop
    corrective action plans for all known IT security weaknesses and to report progress on
    remediation efforts known as the Plan of Action and Milestones (POA&M) process.
    During this review, we identified several deficiencies with NASA’s POA&M process.
    First, the process did not include all known IT security weaknesses. For example, only
    2 percent (7 of 289) of corrective actions related to our sample of 29 systems were
    recorded in the Agency’s official repository for IT security-related information. Second,
    the Agency managed corrective actions using an informal, unwritten policy that was not
    consistently followed. Based on these deficiencies, OCIO did not have sufficient


8                                                                         REPORT NO. IG-10-024
RESULTS



  information to make informed decisions about prioritizing efforts to correct known IT
  security weaknesses. As a result, critical Agency IT assets may not be fully or effectively
  protected.


Deficient Software Acquisition Practices Prevented OCIO from
  Implementing an Agency-wide IT Security Management System

  In October 2005, OCIO selected the Risk Management System (RMS), a commercial,
  off-the-shelf software system as the Agency-wide solution for managing IT security
  related information. In 2007, OCIO required that all IT security-related information,
  including POA&Ms, be recorded in RMS by July 31, 2008. However, almost two years
  later RMS remains significantly underutilized and OCIO continues to manage POA&Ms
  using an inadequate manual process. Specifically, each month Center IT personnel
  provide Headquarters OCIO staff with an Excel spreadsheet of the Center’s POA&M
  data. Headquarters staff manually aggregate this data to create an Agency-wide report.
  OCIO is not able to use RMS to create an Agency-wide report because users have not
  input the underlying data into the system. In our judgment, this occurred because OCIO
  implemented RMS without following recognized software acquisition best practices.
  Specifically, OCIO selected RMS without adequately developing system requirements
  and implemented RMS without adequately evaluating whether the product met the
  business needs of its intended users.

  The “Software Acquisition Capability Model,” March 2002, developed by the Software
  Engineering Institute of Carnegie Mellon University, is a recognized authoritative source
  of best practices for the software acquisition process. The Model notes that the
  development of a detailed set of requirements as part of the solicitation package
  significantly contributes to the success of system acquisition efforts. The Model further
  states that as the system acquisition effort develops, requirements are identified and
  refined, and by the time the solicitation package is fully developed, it should contain a
  significant set of technical and non-technical requirements. However, OCIO prepared the
  solicitation and selected RMS without fully developing detailed system requirements.

  The Software Acquisition Capability Model also recommends use of a structured process
  to evaluate whether a potential system satisfies end-user needs. User acceptance testing
  is a system evaluation process whereby the users determine if the system satisfies
  identified requirements before the system is formally accepted or implemented.
  However, OCIO did not follow this best practice and implemented RMS without having
  its users validate that the product met business requirements. As a result, OCIO spent
  more than $3 million since October 2005 on a software implementation that failed.




REPORT NO. IG-10-024                                                                            9
                                                                                       RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendations. To improve Agency-wide management of IT security corrective action
plans and to ensure that funds for the related IT system acquisition efforts are effectively
spent, we recommended that the NASA Chief Information Officer:

2. develop a written policy for managing corrective action plans to mitigate IT security
   weaknesses; and

3. adopt industry system acquisition best practices, including documenting detailed
   requirements prior to system selection and conducting user acceptance testing, before
   implementing a new system.

     Management’s Response. The CIO concurred with our recommendations and will
     perform the following corrective actions by May 16, 2011:

     1. include written policy statements, addressing the management of corrective action
        plans, in NPR 2810.1B; and

     2. require that detailed requirements are documented prior to selection and acquisition
        of IT systems as part of NPR 2810.1B. Further, OCIO states that they will follow the
        NPR 7210.7 policy in its system acquisition efforts, which includes the use of
        industry best practices including end user testing.

     Evaluation of Management’s Response. We consider the CIO’s proposed actions to be
     responsive to our recommendation. Therefore, the recommendation is resolved and will
     be closed upon verification that the proposed actions have been completed.




10                                                                       REPORT NO. IG-10-024
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed our audit from January through October 2009 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform our work to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained during this audit provides a reasonable basis for our findings and
  conclusions based on our objectives.

  For this report, we evaluated whether NASA complied with FISMA and Agency privacy
  management requirements. We followed OMB Memorandum M-08-21, “FY 2008
  Reporting Instructions for the Federal Information Security Management Act and Agency
  Privacy Management,” July 14, 2008, until OMB released the FY 2009 reporting
  instructions, OMB Memorandum M-09-29, “FY 2009 Reporting Instructions for the
  Federal Information Security Management Act and Agency Privacy Management,”
  August 20, 2009.

  We did not evaluate whether NASA’s national security systems met FISMA and Agency
  privacy management requirements because a separate OIG audit addressed that issue :
  “Audit of the Reporting of NASA’s National Security Systems” (IG-09-024, August 28,
  2009).

  The systems we reviewed were selected from an Agency-wide, non-national security
  system inventory list maintained by the Office of the Chief Information Officer (OCIO).
  As of November 2008, the inventory list, identified 598 internal systems and 30 external
  (contractor) systems. Before selecting our sample, we removed from the inventory those
  systems that were either reviewed in the FY 2008 FISMA audit or are low impact based
  on the system’s security classification.

  The result was a population of 338 high- and moderate-impact internal systems and a
  population of 13 moderate- and high- and moderate- impact external systems. Using the
  EZ-Quant Statistical Sampling Module to generate random numbers, we selected a
  representative sample of systems from each population.

  For our sample of internal systems, we selected two internal systems from each of
  NASA’s 10 Centers, NASA Headquarters, and NSSC, and one external system from each
  of the 7 NASA entities listed as having an external system. During fieldwork, we
  discovered that two of the external systems selected were not in use: one was under
  development and the other had been disposed of. We removed those two systems from
  our sample.



REPORT NO. IG-10-024                                                                          11
                                                                                        APPENDIX A



     In total, we reviewed 29 high- or moderate-impact systems (24 internal and 5 external)
     for compliance with OMB and National Institute of Standards and Technology (NIST)
     requirements for the following performance measures:
        •   a current security certification and accreditation package;
        •   security controls that had been tested within the past year; and
        •   a contingency plan that had been tested within the past year.

     To determine compliance, we reviewed key documents, including system security plans,
     risk assessments, security assessment results, plans of action and milestones,
     accreditation decision letters, tests of security controls, contingency plans, and
     contingency plan tests. We did not evaluate the technical adequacy of these documents
     other than to determine whether they generally met OMB and NIST guidelines. We
     reviewed the following Federal and Agency criteria, policies, and procedures:
        •   “E-Government Act of 2002,” December 17, 2002;
        •   OMB Circular A-130, Appendix III, “Security of Federal Automated Information
            Resources,” February 8, 1996;
        •   NIST Special Publication 800-53A, “Guide for Assessing the Security Controls in
            Federal Information Systems,” July 2008;
        •   NIST Special Publication 800-37, “Guide for the Security Certification and
            Accreditation of Federal Information Systems,” May 2004;
        •   NIST Special Publication 800-34, “Contingency Planning Guide for Information
            Technology Systems,” June 2002; and
        •   NASA Procedural Requirements (NPR) 2810.1A, “Security of Information
            Technology,” May 16, 2006.


Computer-Processed Data

     We relied on data from the Risk Management System -- the Agency’s central repository
     for plans of actions and milestones associated with Agency information systems. We did
     not validate the reliability of the data in the Risk Management System.


Review of Internal Controls

     We reviewed and evaluated internal controls associated with the C&A process.
     Specifically, we examined Agency oversight of contractors who manage external
     systems, the POA&M process, security controls testing, and contingency plan testing.
     We found that oversight for external systems could be improved. In addition, we




12                                                                             REPORT NO. IG-10-024
APPENDIX A



  identified internal control weaknesses related to the POA&M process, security controls
  testing, and contingency plan testing.


Prior Coverage

  During the last 5 years, the Government Accountability Office (GAO) and the NASA
  OIG have issued the following reports related to the subject of this audit. Unrestricted
  reports can be accessed over the Internet at http://www.gao.gov (GAO) and
  http://oig.nasa.gov/audits/reports/FY10 (NASA OIG).

  Government Accountability Office

  “NASA Needs to Remedy Vulnerabilities in Key Networks” (GAO-10-04, October 15,
  2009)

  National Aeronautics and Space Administration

  “Federal Information Security Management Act: Fiscal Year 2008 Report from the
  Office of Inspector General” (IG-10-001, November 10, 2009)

  “Audit of the Reporting of NASA’s National Security Systems” (IG-09-024, August 28,
  2009)




REPORT NO. IG-10-024                                                                         13
                       APPENDIX B




     MANAGEMENT COMMENTS




14            REPORT NO. IG-10-024
APPENDIX B




REPORT NO. IG-10-024   15
                                                                               APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief Information Officer
     Associate Administrator, Space Operations Mission Directorate
     Director, Goddard Space Flight Center
     Director, Marshall Space Flight Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




16                                                                   REPORT NO. IG-10-024
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Jefferson Gilkeson, Project Manager
   Richard Curtis, Audit Team Lead
   Howard Kwok, Senior Auditor
   Eric Jeanmaire, Auditor




REPORT NO. IG-10-024                                        17
                                                                                 SEPTEMBER 16, 2010
                                                                        REPORT No. IG-10-024




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
